Walters Wilson LLP

702 Marshall Street, Suite 611
Redwood City, CA 94063
ericawilson@walterswilson.com
Tel: (650) 248-4586

April 16, 2021
VIA ELECTRONIC FILING
Hon. Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: Case No. 20-1396 – Walter A. Tormasi v. Western Digital Corporation
Request to Extend Time to Respond to Petition for Writ of Certiorari
Dear Mr. Harris:
Pursuant to Supreme Court Rule 30.4, Respondent Western Digital Corporation respectfully requests a
twenty-two day extension of time to and including May 28, 2021 to file a brief in opposition to the
above-referenced Petition for a Writ of Certiorari. No previous extensions have been requested, and
Petitioner does not oppose this request.
On April 2, 2021, Petitioner filed his Petition for Writ of Certiorari. The Petition was docketed on April
6, 2021. There is good cause for the requested extension because the Petition raises a significant
number of legal issues that Respondent expects to address in its brief in opposition to the Petition, as
well as a number of factual issues and record references that Respondent must address and, in some
cases, correct pursuant to Sup. Ct. R. 15.2.
We also note that Petitioner made use of the additional sixty days allotted by this Court in its March 19,
2020 order responding to COVID-19 and filed his brief 150 days after his Petition for Rehearing was
denied by the circuit court.
Pursuant to Sup. Ct. R. 29.6, Respondent Western Digital Corporation states that there is no parent or
publicly held company owning 10% or more of its stock.

/ /

Hon. Scott S. Harris
April 16, 2021
Page 2
Respectfully submitted,
/s/ Erica D. Wilson
Erica D. Wilson
Counsel of Record for Respondent Western Digital
Corporation
cc:

Thomas A. Lewry, Counsel of Record for Petitioner
Dustin Zak (Petitioner’s counsel)
Reza Roghani Esfahani (Petitioner’s counsel)
Leroy Ashley (Petitioner’s counsel)

CERTIFICATE OF SERVICE
I hereby certify that on April 16, 2021 I electronically filed the foregoing Letter Request to
Extend Time to Respond to Petition for Writ of Certiorari with the Clerk of the Court for the United
States Supreme Court. Pursuant to Guidance Concerning Clerk’s Office Operations dated April 17,
2020 the parties have agreed to serve filings through electronic means only, eliminating the need for
paper service. I further certify that on April 16, 2021, I served the foregoing Letter Request to Extend
Time to Respond to Petition for Writ of Certiorari on Petitioner’s counsel via Email as follows:
THOMAS A. LEWRY
Counsel of Record
REZA ROGHANI ESFAHANI
DUSTIN ZAK
LEROY ASHLEY
BROOKS KUSHMAN P.C.
1000 Town Center
Twenty-Second Floor
Southfield, Michigan 48075
(248) 358-4400
tlewry@brooks.law
tlewry@brookskushman.com
dzak@brookskushman.com
resfahani@brookskushman.com
lashley@brookskushman.com
/s/ Erica D. Wilson
Erica D. Wilson
Counsel of Record for Respondent

